SIGAR
     v
                                                    Special Inspector General for
                                                     Afghanistan Reconstruction




                                                           SIGAR-14-7 Inspection Report



          Justice Center in Parwan Courthouse: Poor Oversight
          Contributed to Failed Project




                                                                        OCTOBER

                                                                         2013
SIGAR 14-7-IP/Justice Center in Parwan Courthouse
SIGAR
                                                      OCTOBER 2013
                                                      Justice Center in Parwan Courthouse: Poor Oversight Contributed to Failed Project


                                                      SIGAR-14-7 INSPECTION REPORT


Special Inspector General for                         WHAT SIGAR FOUND
Afghanistan Reconstruction                            Construction of the Justice Center in Parwan (JCIP) courthouse has not been
                                                      completed and the workmanship of the construction that has been done to date is
WHAT SIGAR REVIEWED                                   poor. For example, in its May 2013 inspection, SIGAR observed numerous cracks
                                                      in the concrete, incomplete pours of concrete and rebar bound with wire instead
Under a December 2010 agreement between               of being welded that could lead to structural failure. In January 2012, the State
the State Department’s Bureau of                      Department’s Bureau of International Narcotics and Law Enforcement Affairs (INL)
International Narcotics and Law Enforcement           and the Department of Defense’s Combined Joint Interagency Task Force-435
Affairs (INL) and the Department of Defense’s         (CJIATF-435), which both funded the project, conducted inspections and found
Combined Joint Interagency Task Force-435             construction flaws, including the use of inferior building materials. Based on the
(CJIATF-435), INL agreed to provide up to $10         results of these inspections, in mid-January 2012, the Department of Defense’s
million to construct the Justice Center in            Bagram Regional Contracting Center (BRCC) issued CLC Construction Company
Parwan (JCIP) complex in Parwan province. On          (CLC) a Stop-Work Order. Subsequently, in March 2012, the U.S. Army Corps of
June 13, 2011, the Bagram Regional                    Engineers conducted an inspection and recommended terminating and re-bidding
Contracting Center (BRCC) awarded CLC                 the courthouse contract.
Construction Company (CLC) a $2.38 million
firm fixed-price contract to build the JCIP           CJIATF-435’s oversight of the construction project was not conducted as required.
courthouse, the centerpiece of the 11                 The project fell behind schedule quickly and SIGAR found no evidence that the
buildings in the complex. The contractor was          project’s contracting officer representative (COR) conducted monthly reviews or
given 155 days to complete the project after          submitted reports to the BRCC contracting officer as required. In fact, the COR,
the notice to proceed was issued on July 16,          who had military experience as a construction engineering supervisor, told SIGAR
2011. On November 11, 2011, the contract              that he felt unqualified to determine whether the contractor was performing
was modified to increase the height of the            according to the contract.
courthouse ceilings, which increased the              In June 2013, BRCC notified CLC that the JCIP courthouse contract was being
contract value to $2.67 million.                      terminated for convenience, which gives the U.S. government the right to
This inspection assesses (1) whether                  terminate a contract without cause. At the time, CLC had been paid $396,000.
construction of the courthouse was completed          Because the contract was terminated for convenience rather than default, CLC
in accordance with contract requirements and          could have requested the amount remaining on the contract, or about $2.2
applicable construction standards and (2) the         million. A draft of this report recommended reviewing the decision to terminate for
U.S. government’s management of the JCIP              convenience and taking action to address the contractor’s failure to complete the
courthouse construction contract.                     project according to the terms of the contract. On October 3, 2013, CENTCOM’s
                                                      Joint Theater Support Contracting Command rescinded the contract’s termination
WHAT SIGAR RECOMMENDS                                 for convenience and issued a termination for default. SIGAR considers this action
                                                      as meeting the intent of its recommendation and, accordingly, deleted this
SIGAR recommends that the Commander, U.S.
                                                      recommendation from the final report.
Central Command and the U.S. Secretary of
State identify the reasons poor oversight
occurred and establish processes to ensure
this problem does not reoccur.

SIGAR received comments from INL and
CENTCOM’s Joint Theater Support Contracting
Command (C-JTSCC), which are reproduced in
appendices III and IV, respectively. INL and C-
JTSCC concurred with the recommendation to
strengthen oversight and noted the steps they
are taking to implement this recommendation.
                                                           Tilted columns, sagging reinforcing rods, and faulty rebar at the JCIP courthouse
                                                           construction site in Parwan province, Afghanistan.
                                                           Source: SIGAR, May 15, 2013.

        For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
October 25, 2013
The Honorable John F. Kerry
U.S. Secretary of State
The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan
General Lloyd J. Austin III
Commander, U.S. Central Command
Brigadier General James E. Simpson
Commander, U.S. Central Command Joint Theater Support Contracting Command
This report discusses SIGAR’s inspection of the courthouse at the Justice Center in Parwan
(JCIP), Parwan province, Afghanistan. The report includes a recommendation to the
Commander, U.S. Central Command (CENTCOM), and the Secretary of State to identify the
reasons poor oversight occurred and establish processes to ensure that similar problems do
not happen in the future. The draft report also recommended that they review the decision to
terminate the JCIP courthouse contract for convenience and take action to address the
contractor’s failure to complete the courthouse according to the terms of the contract.
Following the release of our draft report for comment, CENTCOM’s Joint Theater Support
Contracting Command (C-JTSCC) rescinded the contract’s termination for convenience and
issued a termination for default. Because this action was taken, we deleted the
recommendation from our final report.
In commenting on a draft of this report, C-JTSCC did not concur with our initial
recommendation to review the decision to terminate the JCIP courthouse contract for
convenience. C-JTSCC explained that it did not concur with the recommendation because its
decision to rescind the termination for convenience and then terminate the contract for default
was unrelated to any fact contained in SIGAR’s draft report. Instead, C-JTSCC stated that the
decision to terminate for default was based on information obtained during a SIGAR criminal
investigation into the contractor. C-JTSCC concurred with our recommendation to strengthen
contract oversight and noted the steps it is taking to do so.
The Department of State’s Bureau of International Narcotics and Law Enforcement Affairs (INL)
generally agreed with both recommendations contained in the draft report. INL reported that it
is implementing lessons learned from the JCIP and instituting new, more comprehensive
requirements for those serving in oversight roles on construction and service contracts.
INL and C-JTSCC also provided technical comments, which we incorporated as appropriate.
Their comments are reproduced in appendices III and IV, respectively.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
the Inspector General Act of 1978, as amended; and in accordance with Quality Standards for
Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS



Background .................................................................................................................................................................. 1

Courthouse Construction Is Incomplete and Flawed ................................................................................................. 3

Required Oversight of Courthouse Construction Was Not Conducted ..................................................................... 4

Conclusion.................................................................................................................................................................... 6

Recommendation ........................................................................................................................................................ 6

Agency Comments ....................................................................................................................................................... 6

Appendix I – Scope and Methodology ........................................................................................................................ 8

Appendix II - Timeline of Significant Events in JCIP Courthouse Contract and Construction .................................. 9

Appendix III - Comments from the Department of State’s Bureau of International Narcotics and Law
Enforcement .............................................................................................................................................................. 10

Appendix IV - Comments from CENTCOM Joint Theater Support Contracting Command ..................................... 12
Appendix V – Acknowledgments ............................................................................................................................... 17


FIGURES

Figure 1 – Timeline of Significant Events in the JCIP Courthouse Contract and Construction ............................... 9


PHOTOS

Photo 1 - JCIP Courthouse Stands Incomplete .......................................................................................................... 1

Photo 2 - Incomplete Concrete Pour of Wall Could Result in Structural Failure ...................................................... 3

Photo 3 - Rebar Is Tied Together Instead of Welded ................................................................................................. 3




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                                                                     Page ii
ABBREVIATIONS & ACRONYMS

           BRCC                              Bagram Regional Contracting Center

           CENTCOM                           U.S. Central Command

           CJIATF-435                        Combined Joint Interagency Task Force-435
           CLC                               CLC Construction Company

           COR                               Contracting officer’s representative

           DOD                               Department of Defense
           FAR                               Federal Acquisition Regulation

           INL                               Bureau of International Narcotics and Law Enforcement Affairs

           JCIP                              Justice Center in Parwan
           State                             State Department




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                      Page iii
The U.S. and Afghan governments signed a Letter of Agreement in 2006 that committed to improve
governance by enhancing the administration of justice and rule of law. A key element in implementing this
strategy was the development of a criminal justice facility known as the Justice Center in Parwan (JCIP). JCIP
was designed to provide a secure facility for transferring Afghan combatants from U.S. military custody into the
Afghan criminal justice system. The U.S. government was to assist with building, equipping, and operating the
JCIP, as well as mentoring and training Afghan government personnel assigned to the facility. JCIP was planned
as a complex of 11 buildings—a courthouse, offices, laboratory facilities, meeting hall, and housing—located
adjacent to the existing Parwan Detention Facility, which is next to the Bagram Airfield north of Kabul. The
courthouse was expected to be the centerpiece for Afghan national security trials. (See photo 1.)
For this inspection, we assessed (1)
whether construction of the courthouse
                                                   Photo 1 - JCIP Courthouse Stands Incomplete
was completed in accordance with
contract requirements and applicable
construction standards and (2) the U.S.
government’s management of the JCIP
courthouse construction contract.
We conducted our inspection work in
Kabul, Afghanistan, and at the JCIP site in
Parwan province from May through
September 2013, in accordance with the
Quality Standards for Inspection and
Evaluation, published by the Council of
the Inspectors General on Integrity and
Efficiency. The engineering assessment
was conducted by a professional engineer
in accordance with the National Society of
Professional Engineers’ Code of Ethics for         Source: SIGAR, August 20, 2013.
Engineers. Appendix I provides a more
detailed discussion of our scope and
methodology.


BACKGROUND

Under a December 19, 2010, interagency agreement between INL and Combined Joint Interagency Task Force-
435 (CJIATF-435), 1 INL agreed to provide up to $10 million for construction of the JCIP complex. 2 For its part,
CJIATF-435 committed to support the construction and furnishing of 11 buildings, including a courthouse to
hold Afghan national security trials. Our inspection focused on the contract to construct the courthouse.
On June 13, 2011, DOD’s Bagram Regional Contracting Center (BRCC) 3 awarded a $2.38 million firm fixed-
price contract (W91B4N-11-C-8066) to CLC Construction Company (CLC) to build a courthouse at the JCIP



1 CJIATF-435 is a subordinate command of U.S. Forces-Afghanistan. Its efforts are focused on, among other things,

providing secure and humane care, custody, and control over detainees, promoting rule of law, and the transition of
detainee operations to Afghanistan.
2   The agreement was amended in March 2011 to include an additional $2 million.
3In Afghanistan, DOD uses several organizations to manage Afghanistan reconstruction contracts, including U.S. Central
Command’s Joint Theater Support Contracting Command (C-JTSCC). In April 2010, C-JTSCC became responsible for
executing centralized contracting oversight for all DOD contracts in Afghanistan. BRCC is a component of C-JTSCC.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                     Page 1
complex. 4 The design documents called for construction of a 2-story courthouse, including 4 courtrooms, 6
judge’s chambers, 23 individual offices, and 4 holding cells. CLC was given 155 days to complete the project
after the notice to proceed was issued on July 16, 2011. The contract also required CLC to perform
engineering, review, verification, and concept design functions. On November 11, 2011, the contract was
modified to increase the height of the courthouse ceilings and, as a result, the contract value was increased
from $2.38 million to $2.67 million.
Several agencies shared responsibility for the courthouse construction:
    •    BRCC served as the contracting officer organization and had responsibility for entering into,
         administering, and terminating the contract.

    •    CJIATF-435 was responsible for project design, review, and approval of all construction, including
         providing progress reports. The task force provided the original contracting officer representative
         (COR) for JCIP. CORs are authorized by contracting officers “to conduct contract surveillance … in order
         to verify that the contractor is fulfilling contract requirements and to document performance for the
         contract record. These CORs function as the eyes and ears of the Contracting Officer….” 5 A BRCC
         contracting officer was working with a CJIATF-435 COR during construction of the courthouse.

    •    INL reserved the right to conduct project, financial, and administrative reviews pertaining to the use of
         its funds. In October 2012, INL took over as the organization providing the COR for the courthouse
         project.

Appendix II provides a timeline of significant events for the JCIP courthouse contract and construction.




4 The solicitation required the JCIP courthouse contract to be awarded based on the lowest-priced technically acceptable

proposal as stipulated in the Federal Acquisition Regulation (FAR) 15.101.2. This process is used when the best value is
expected to result in the selection of the proposal that either meets or exceeds acceptability standards set forth in the
solicitation, and that possesses the lowest price.
5 Department of Defense, “COR Handbook,” Director, Defense Procurement and Acquisition Policy, March 22, 2012; pg. 1.

www.acq.osd.mil/dpap/policy/policyvault/usa001390-12-dpap.pdf.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                    Page 2
COURTHOUSE CONSTRUCTION IS
INCOMPLETE AND FLAWED
                                                               Photo 2 - Incomplete Concrete Pour of Wall Could
                                                               Result in Structural Failure
Our site inspection on May 15, 2013, found that
construction of the 2-story JCIP courthouse was
incomplete and that the overall quality of CLC’s
workmanship was poor and could result in
structural failures. Our inspectors estimated
construction was about 15 percent complete and
was limited to several exterior walls, concrete
footings, 6 concrete supporting columns, and rebar
placement.

We observed numerous cracks in the concrete,
exposed rebar in the concrete, and honeycombing 7
in the concrete columns. We also noted incomplete
pours of concrete resulting in cold joints, 8 which
could lead to future structural failure (see photo 2),
and rebar that was bound together with wire                    Source: SIGAR, May 15, 2013.
instead of welded (see photo 3).

Additional inspections conducted by CJIATF-435,
                                                              Photo 3 - Rebar Is Tied Together Instead of Welded
INL, and the U.S. Army Corps of Engineers revealed
other problems. Specifically, on January 8, 2012, a
CJIATF-435 engineer noted exposed rebar,
improper scaffolding for workers, and the lack of a
quality control program. On January 18, 2012, INL
engineers indicated that the building had serious
structural deficiencies, numerous safety violations,
and that CLC was using inferior building materials.
The next day, BRCC issued a Stop-Work Order to
CLC.
In late March 2012, the U.S. Army Corps of
Engineers conducted an inspection and identified
deficiencies, such as (1) the contract’s technical
design lacked specifics, (2) poor construction
practices were implemented, (3) the concrete
strength in some of the blast walls may not be                Source: SIGAR, May 15, 2013.
sufficient, and (4) the design drawings were



6 A footing, or foundation, is the lowest and supporting layer of a structure. Typically footings are embedded about 3 feet

into the soil to support the structure.
7 Honeycombing refers to voids left in concrete due to failure of the mortar to effectively fill the spaces among coarse-

aggregate particles, and may be caused by inadequate vibration during pouring of the concrete. Depending on the location,
honeycombing can significantly weaken the structure.
8 A cold joint is a plane of weakness in concrete caused by an interruption or delay in the concrete pouring. It occurs when

the first batch of concrete has begun to set before the next batch is added, so that the two batches do not intermix.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                      Page 3
illegible. Based on its inspection, the U.S. Army Corps of Engineers recommended terminating and re-bidding
the courthouse contract.


REQUIRED OVERSIGHT OF COURTHOUSE CONSTRUCTION WAS NOT
CONDUCTED

CJIATF-435 documents demonstrate inadequate oversight and significant project delays from the time
construction started in July 2011. The project was 15 days behind schedule by August 10, 2011—less than 1
month after the start of construction. By September 4, 2011—2 months after construction began—the
courthouse was 46 days behind schedule and only 4 percent of the structure had been completed. At an early
October 2011 meeting of INL, BRCC, and CJIATF-435 officials, participants expressed concern that the BRCC
contracting officer and the CJIATF-435 COR were not performing satisfactorily and that monitoring and
reporting were insufficient to keep them informed of the construction’s progress and any measures taken to
improve CLC’s performance.
In late October 2011—about 3 months after construction began—an INL official expressed concern about the
depth of the CJIATF-435 COR’s experience in working with contractors in Afghanistan. Specifically, this official
stated that he was “a bit uncomfortable with the documentation of inspections and reviews that may or may
not have been conducted” and that he lacked the confidence to move forward with the project. The CJIATF-435
COR told us that he felt unqualified to determine whether CLC was performing according to the contract’s
technical specifications. However, according to CJIATF-435 officials, the CJIATF-435 COR’s military experience
as a construction engineering supervisor qualified him to fulfill his responsibilities.
Although the CJIATF-435 COR was based at Bagram Airfield and the courthouse construction site was near the
airfield, we found no evidence that the COR conducted quality assurance reviews and submitted corresponding
reports. Federal Acquisition Regulation (FAR) 1.602-2 allows the contracting officer to assign certain
contracting oversight functions to a COR. In the case of the JCIP courthouse, these functions included (1)
verifying that the contractor executed the contract’s technical requirements, (2) performing inspections with
regard to those requirements, and (3) monitoring the contractor’s performance. However, we did not find any
documentation to support that the COR performed required monthly inspections or submitted the required
monthly progress reports as required by the COR’s appointment letter. Furthermore, a BRCC official told us that
he never saw any inspection reports from the CJIATF-435 COR. Despite the slow progress and lack of reporting
by the COR, we did not find evidence that the two BRCC contracting officers who served during the
courthouse’s construction attempted to take any actions to resolve these deficiencies.
The first CJIATF-435 COR remained in that position until January 2012, 6 months after the start of the
construction. At that time, inspections by CJIATF-435, INL, and the U.S. Army Corps of Engineers documented
serious construction problems, and a Stop-Work Order was issued to CLC in January 2012. While other CORs
and contracting officers were subsequently assigned to the courthouse project, no construction took place for
them to monitor after January 2012.


Although Originally Terminated for Convenience in June 2013, Courthouse Contract
Was Terminated for Default in October 2013
The contract for construction of the JCIP courthouse was initially terminated for convenience 9 by the U.S.
government in June 2013, even though there may have been a sufficient basis for terminating the contract for

9 Termination for convenience gives the U.S. government the right to terminate a contract without cause. FAR 49.103

requires that settlement of fixed-price contracts terminated for convenience may be effected by negotiated agreement,
determination by the termination contracting officer, or a combination of these methods. However, FAR 49.201 states that
the “primary objective is to negotiate a settlement by agreement.” FAR 49.201 also requires that a “settlement should




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                 Page 4
default at that time. 10 Under a termination for convenience, according to FAR 49.207, a settlement negotiated
between the contracting agency and the contractor cannot exceed the contract price less payments otherwise
made or to be made under the contract. Records show that CLC had been paid $396,000 at the time the Stop-
Work Order was issued in January 2012, which left about $2.2 million remaining on the contract.
However, the INL COR who was assigned responsibility for the courthouse project in October 2012
recommended that the contract be terminated for default. 11 This INL COR performed a quality assurance
assessment in early November 2012—about 10 months after the Stop-Work Order had been issued. Based on
this assessment, the COR stated that CLC had not complied with the contract’s statement of work, identified
problems with the design documents, and noted the poor quality of the contractor’s workmanship. As a result,
on November 29, 2012, the COR sent a 13-point memorandum to the BRCC contracting officer recommending
that, due to the egregious nature of the concerns identified, the contract should be terminated for default. The
memorandum stated, in part, that CLC
    •    submitted design drawings for mechanical, electrical, fire protection, seismic and other items that
         were either incomplete or did not conform to code;
    •    failed to provide INL with the required geotechnical report; 12
    •    submitted an improper and unapproved rebar test; and
    •    exhibited poor quality of work, such as wall thickness less than the specifications required, poor
         construction joints, and less than the required minimum concrete to cover some of the rebar.
The memorandum also noted that CLC had failed to pay suppliers and workers and had submitted invoices for
work not yet performed.
An e-mail from the BRCC contracting officer’s legal counsel indicated that they “have plenty of justification to
support either decision” to terminate for convenience or terminate for default. Nonetheless, the BRCC
contracting officer told us that he felt there was inadequate documentation and oversight from the CORs to
justify a termination for default and ultimately the decision was made to terminate for convenience. On June
15, 2013, CLC was formally notified of the termination for convenience. INL has decided not to proceed with
the courthouse construction, in part because of the contractor’s poor performance, and the U.S. government
will have to pay to demolish the current structure. Because no courthouse has been built, Afghan national
security trials are being held in improvised settings across the JCIP complex.
Our draft report, sent to INL and C-JTSCC for review on September 27, 2013, included a recommendation to
review the decision to terminate the JCIP courthouse construction contract for convenience and take
appropriate action to address the contractor’s failure to complete the JCIP courthouse according to the terms
of the contract. In commenting on our draft report, INL and C-JTSCC noted that C-JTSCC rescinded the
termination for convenience and issued a termination for default on October 3, 2013. As a result, we have
deleted this recommendation from our final report.


compensate the contractor fairly for the work done and the preparations made for the terminated portions of the contract,
including a reasonable allowance for profit.”
10 FAR 49.401 states that “Termination for default is the U.S. government's contractual right to completely or partially

terminate a contract because of the contractor's actual or anticipated failure to perform its contractual obligations.” FAR
49.402-2 states that under a termination for default, “the Government is not liable for a contractor’s costs on undelivered
work and is entitled to repayment of advance and progress payments.” Termination for default also exposes construction
contractors to potential liability for the consequences of its breach, including any costs incurred by the Government in
completing the work. See also FAR 52.249-10.
11 The CJIATF-435 COR ceased responsibility in January 2012. There was no COR for the courthouse project until October

2012, when INL took responsibility for the COR position.
12 The geotechnical report helps to ensure that a contractor conducted an adequate review and testing of features such as

the suitability of the soil for earthworks and foundations.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                    Page 5
CONCLUSION

More than 2 years after construction began and $396,000 was spent, the JCIP complex is without a dedicated
courthouse facility, which was envisioned as the centerpiece of the judicial center. Trials are currently
conducted in improvised settings, while the courthouse construction site is filled with cracked concrete and
rusty rebar that will be demolished at additional cost to the U.S. government. DOD and State decided to stop
work and terminate the contract after officials noticed problems with construction quality and the sufficiency of
project oversight. We believe C-JTSCC’s original decision to terminate the construction contract for
convenience was ill-considered and did not take into account clearly established deficiencies in the quality of
the work performed by the contractor. C-JTSCC’s decision in October 2013—while a draft of this report was
being reviewed by INL and C-JTSCC—to rescind the termination for convenience and issue a termination for
default is a positive step. Nevertheless, the poor oversight this project experienced calls for additional review
and corrective action to ensure such mistakes do not reoccur.


RECOMMENDATION

To ensure that additional U.S. taxpayer dollars are not wasted, we recommend that the Commander, U.S.
Central Command, and the U.S. Secretary of State identify the reasons for poor oversight of the JCIP
courthouse construction contract and establish processes to ensure such problems do not reoccur.


AGENCY COMMENTS

INL and C-JTSCC provided written comments on a draft of this inspection report, which we incorporated into the
final report, as appropriate. Their comments, and our response to C-JTSCC’s letter, are reproduced in
appendices III and IV, respectively.
Our draft report originally contained two recommendations. Our first recommendation was for DOD and State
to review the decision to terminate the JCIP courthouse contract for convenience and to take appropriate
action to address the contractor’s failure to complete the JCIP courthouse according to the terms of the
contract. INL agreed with this recommendation, noting that it had recommended terminating the contract for
default in November 2012. C-JTSCC did not agree with this recommendation. Nevertheless, on October 3,
2013, while a draft of this report was at INL and C-JTSCC for their review and comment, C-JTSCC rescinded the
termination for convenience and issued a termination for default. In its comments, C-JTSCC stated that this
decision was not related to any fact described in our draft report, but instead was based on information
obtained during a separate SIGAR investigation of the contractor. Regardless of C-JTSCC’s stated reasons
behind its decision to rescind the termination for convenience and terminate the JCIP courthouse construction
contract for default, C-JTSCC’s decision satisfies our recommendation. We have therefore deleted it from the
report.
Regarding our recommendation to identify reasons for the poor oversight and establish corrective processes,
INL stated that it is continually working to strengthen the oversight and monitoring of its programs, as
evidenced by its effort to consult with the U.S. Army Corps of Engineers to independently assess and document
the contractor’s performance. We are pleased that, to further its commitment to more clearly articulate
oversight requirements and responsibilities, INL established a new policy for INL personnel serving in certain
oversight roles involving construction contracts exceeding $150,000 and services contracts exceeding $1
million. Specifically, these personnel must now meet internal qualification requirements, in addition to Federal
Acquisition Certification COR requirements, and must be approved by INL’s Resource Management office.
These actions may improve the quality of future contract oversight performed by INL.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                         Page 6
C-JTSCC also concurred with our recommendation to identify reasons for poor oversight of this contract and
noted that the rotation of personnel responsible for the contract reduced the government’s ability to effectively
monitor performance. C-JTSCC explained that lack of contracting officer continuity and lack of consistent COR
oversight of the contract were major contributors to the failure of the JCIP courthouse construction contract. C-
JTSCC also noted positive measures it has taken to mitigate future contract oversight problems, such as the
requirement that all regional contracting center chiefs submit weekly status updates on all construction
projects over $150,000 to the Senior Contracting Official-Afghanistan. In conjunction with this measure, the
responsible contracting officer must identify when a project is behind schedule and establish corrective action.
Also, effective August 2013, C-JTSCC began requiring that monthly contracting officer representative reports be
submitted on each project in excess of $150,000 by the tenth day of every month. If a monthly report is
delinquent or lacks qualitative information on the project, the contracting officer is required to follow up
directly with the COR. In addition, C-JTSCC now employs construction control representatives, who serve as
subject matter experts assisting the CORs and contracting officers to monitor contract performance. These
steps may also improve C-JTSCC’s oversight of construction projects in the future. As part of our normal audit
procedures, we will follow up with INL and C-JTSCC to review the actions taken to implement our
recommendation to improve contract oversight.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                         Page 7
APPENDIX I – SCOPE AND METHODOLOGY

This report provides the results of SIGAR’s inspection of the Justice Center in Parwan (JCIP) courthouse in
Parwan province, Afghanistan. For this inspection, we assessed (1) whether construction of the courthouse
was completed in accordance with contract requirements and applicable construction standards and (2) the
U.S. government’s management of the JCIP courthouse construction contract.
To assess whether construction was completed in accordance with contract requirements and construction
standards and the U.S. government’s management of the JCIP courthouse contract, we
    •   interviewed U.S. officials regarding the solicitation and approval process of the contractor;
    •   interviewed U.S. and Afghan officials concerning the present state of Afghan judicial proceedings;
    •   reviewed contract documents, design submittals, and geotechnical reports to understand project
        requirements and contract specifications; and
    •   conducted a physical inspection and photographed the project site to observe the current status and
        quality of construction.
SIGAR conducted its fieldwork in Kabul, Afghanistan; the Combined Joint Interagency Task Force-435
headquarters at Camp Phoenix, Afghanistan; and the Bagram Regional Contracting Center at Bagram Air Field
from May through September 2013. We conducted site visits at the JCIP courthouse in May, July, and August
2013, and performed our work in accordance with the Quality Standards for Inspection and Evaluation,
published by the Council of the Inspectors General on Integrity and Efficiency. The engineering assessment was
conducted by a professional engineer in accordance with the National Society of Professional Engineers’ Code
of Ethics for Engineers. We did not rely on computer-processed data in conducting this inspection. However, we
considered the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                        Page 8
APPENDIX II - TIMELINE OF SIGNIFICANT EVENTS IN JCIP COURTHOUSE
CONTRACT AND CONSTRUCTION

Figure 1 – Timeline of Significant Events in the JCIP Courthouse
Contract and Construction




Source – SIGAR-generated.
Legend: CLC: CLC Construction Company; CJIATF-435: Combined Joint Interagency Task
Force-435; BRCC: Bagram Regional Contracting Center; INL: Bureau of International
Narcotics and Law Enforcement Affairs; COR: contracting officer representative; USACE:
U.S. Army Corps of Engineers




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                        Page 9
APPENDIX III - COMMENTS FROM THE DEPARTMENT OF STATE’S BUREAU OF
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT


                                                                     United States Department of State

                                                                      Washingto11, D.C.   20S20


                                                                     October 10,2013


             Ms. Elizabeth A. Field
             Special Inspector General for Afghanistan Reconstruction
             1550 Crystal Drive, Suite 900
             Arlington, VA 22202

             Dear Ms . Field:

                    The Bureau of International Narcotics and Law Enforcement Affai rs (INL)
             welcomes the opportunity to comment o n thb draft SIGAR inspection report. INL
             gene ra lly agrees wit h SIGAR's recommendations, a nd where it is withi n our
             a uthority to do so, will continue to tak e steps to imple ment them.

             The Justi ce Cente r in Parwa n (JCI P) is a jo int Depart ment of State and Department
             of Defense (Do D) progra m to build the ca pacity of the Afghan criminal co urt that
             prosecutes forme r Coalition Forces detainees. Despite issues w ith const ructio n o f
             the co urthouse building owing lo the contractor's noncompli ance, the overa ll JC IP
             program has no net he less been a tremendous success. As of Septe mbe r 2013, the
             JCIP has hea rd over 5,000 cases since the court was founded in 2010, bolstering
             the Afghan justice system's ability to try national securi ty cri mes and facilitating
             the transfer of military detainees.

             Responses to Recommendations

             INL ge ne rally agrees with the two recommend ations o n page 6 of the draft
             inspection report. Specificall y, INL's respon ses to the drafi inspection
             reco mmendations arc:

            Recommendation 1: Review the decision to te rminate the JCIP courthouse
            co nstruction co ntract fo r co nvenience and take appropriate action to address the
            contractor's fai lure to c omplete the JCIP courthous<:: accord ing to th<:: terms of the
            contract.

            INL Respon se (October 2013) : As the re port notes, I L recomme nded
            terminati on fo r de fault in November 2012 and continued thereafter to s upport that
            course o r act ion. W~;; were pleased that on October 3, 2013, the Regional




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                        Page 10
                                                       - 2-

             Contract ing Center- East contracting officer (CO) rescinded the June 15, 2013
             termination for conven ience and issued a terminat ion fo r default.

             Recommendation 2: Identify the reasons poo r oversight occurred and establish
             processes to ensure this problem is corrected.

             INL Response (October 2013): INL is continually worki ng to stre ng then
             mo nitoring and oversight of o ur programs. INL did not originally have a contract
             oversight ro le, but in October 2012, INL assumed the contracting officer
             representative (COR) overs ight responsi bilities to have an official vo ice in
             improving enforcement of the contract. INL as ked its own e ngineers and the U.S.
             Army Corps of Engineers to assess and document the contractor's perfo rmance.
             Based o n these assessments, which mirror SIGAR's findings, the l NL COR
             recommended th at the DoD contracting officer terminate the contract for default
             and pursue other courses of action for ho ldi ng the contractor accountab le for
             noncompliance. Furthermore, in subsequent State-DoD projects at JC IP, INL
             wo rk ed to mo re clearl y articulate oversight requi rements and responsibilities.

             T hough INL was not originall y respo nsible for contract oversig ht of the co urtho use
             construction, lesso ns learned at the JCIP he lped to inform the bureau's new, mo re
             comprehens ive requirements for those servi ng in certain oversight roles o n
             constructio n contracts exceeding $150,000. As of September 2013, INL now
             requires these indi viduals to meet internal standardized qualification criteria in
             addition to Federal Acq uisition Cert ification (FAC) COR requirements, as well as
             be approved by lNL 's Resource Management office. This will further ens ure that
             individua ls overseeing construction projects have the requisite educatio n and
             experience to e ffectively carry o ut the ir responsibilities.

                   We appreciate SIGAR's thorough examination of the JCIP courtho use
             contract. lNL looks forward to continuing to work toget her with SlGA R and other
             relevant authorities on these issues.

                                                                   Sincerely,


                                                              ~.~~+Executive Directo r
                                                                   INL




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                       Page 11
APPENDIX IV - COMMENTS FROM CENTCOM JOINT THEATER SUPPORT
CONTRACTING COMMAND



                                                                     HEADQUARTERS
                                              C:!:NTCOM JOINI fHI:A I tK ~\JI"I'Ofll OONTRAC'I1NG COMMAND
                                                         NEW KABUL COMPOUND, A.t'GHANIST._tl
                                                                            AI'O Ae ot3!1S
                                -.~no


                                ·~"'

           CJTstT/C.X,                                                                                                       I.J Oc10hcr 2013

            \1EMORA DUM FOR SI<, -\R OFFil J- 01-' '\l'L::C'b\1 PROJFCI ~

           StlBJF(.I: Respoll~ to SIC"\R·I-1-X ln~t ion Report - Dr.tft Rcpcm -Jmfic<' <'<'n tt!r m l'arwan
           f./('11'1 Ct~urthou\cr Pow 01'<'~<11{111 ( 'ontnhutetl U> fmll'd Pro;<·~·t uml.ktm11 M~· Be J\'l!f!t.lc<f tu A•·md
           tmn<'<'~'~-~lli'V c,m~ rr• tlu• {. \ (it~>'d·nuwul··




                a_   Recommendation I :                '{k-.·r~·..- rlw 1Jnninn w ltrnrinutt· rlr• ,/( '//' <Y•I!•"Iinm•<· r<Jm /rll(lr<m '~IOIIr<rt1 {r.r
            nnn~c·ruc_•m;4."'
                           Llnti tuke" upprttpl'i tL~ 1.14.Uml to t.rdJreH Ilk· umtrdt'IU." '/tJIItJt..: ro "•mtllt!f'J lht.'./( .,,, L'uurtlrtllll4:
            1/t t·ur./U~ Jh~ J~mf IJ{th...• ...'nr' '.:Jc.'l ..




            R2Spoose: "'ON-CONCUR l -JTSCC tcrmina!ed the JCIP cmHriWI li) r tlcfuult en~~:tiw J Oct IJ IL~~IIl'.
            Information obta1nod frt•m crmuna l in\ e:.t ilU)tors that '':h unn:la1~d tt• :m} !act contained "it htn the aud i1
            n.:p..m.

                      I) "~:ill< S!Gt\R audjii1J:i..!!KI not have m:c~-.;~ to n:levm11 inft•rrnatn>n because tht:\ mitiaurd and
            &QID.llkt.ocLtbc nudjt prior..IQ the completion of a kno,,n_on~nin g criminal                         investi~tiun .
            offkio ls worlo.ed "-ith ttirn inJtl invcsti!!~tors fi-om the l ntcm~ttional Contra1.'1. C~mupt i on Tt1~k Force
            1ICI.. TFj-to include Sic •Ak agenl';. before. aurin[!. amlaltertlle ~lv/\ K auatl.
                                                                                                                                       C-JTSCC
                                                                                                                                                             D   SIGAR

                                                                                                                                                                 comment 1



                  2) <.:JTSU.'..Il!oL:i!'lli!ri...W.IUlt•t lCrtllJillltC dtc contmct foe c~•nvc-n_I<:.112>J!."IL.thc :;akc ofcl fictsns.J as
            iUrul~tcd  in the audit l he ~-ontract "a~ initi;~lly tcrrni nnt~.:d fOf .:,~m·~'ll icncc ~cau'.: the cuntrnct tile did
            not adequately document the t:ontrector· ~ poor pcrfonnancc_ In the nhscncc- Clf such information_ a
            ICnlliOation rur defau lt \\ OO(d 1!111 hii~C \\ lth,toud JUdiCIS I rc\ IC\\ .
                                                                                                                                                             D   SIGAR

                                                                                                                                                                 comment 2




                                                                                                                                                             D
                    3) Th.: audn exclude> ;un_ rcfcn.:ncc tu muhtpls: )l!.Cl~ tb.!!l.supponcd the ClllllfltCll.D.J.t oi]J~r· ~.m.itw l                           SIGAR
            I,!J<'<;•~ion
                        to terminate lhl cun tra~l forcon,cmencc_ l'l1e ~!GAlt audctors ··nut~"<r-thcsc fact.s hntlinlcd Ill
                                                                                                                                                                 comment 3
            adtlrC!>S t hem in the Yudi! rcp-.111.

                            a)    I he C()ntn.ctin;: nffk..:r lJmper!' c'\cu-.t mpnths uf' \<!!lt'IIllCtion tlchtv un the basis thllt
             such~la)~~m Q i"vcmntcm ~ljbr teslill.l! rhc KT rF and the lntcmottnna l arcmics and




                                                                                                                                                             D
             I.ll\\ Fnfmccmcnt (lt-.1 .) di' •~ion ~,f the State D..:p~nm.:111 rcqw~.:d tlt.~1 the ~•tc he suhj~-ct to indcpo:.ndcl\l                            SIGAR
             geoloj.UCIII tcstin!! <.. .JJ ")(. ( J'CI"ionnel expi811Nd to the SIC oAR audttors that the contrnctm wli'> not at                                  comment 3a
             t'a\l]l ror the 8.S:.OCiated Q.ela) ~m lt\Uhlplc     tli;Cll-"<lLK to mclude the 111-brccf and Ull!•bricf ()1\th i' rcpor!
              rh..: auditclf"'\ -notc<r· th~     tn C<•Ollali<~n
                                                               and failed to moorpnrate an~ rcfercn..:.e w tl o:-c fBCI~ and m..:<•rTCCtl~
             ~:ondudcd that the dela~ rc'~<iled             rmm com ractmg <>t1i.:aals" discngti!!-C'ITICnt from thi!> prtljcct_

                         b) rhe comrn:tinll ~>ftkcr prop.:r1:r- auth(lnzcd the wntr~~etor ~dditt(K)al JXrformam:e time and                                       SIGAR
             oncrca:.ed th~ contract pnce ~~~a rc,;uil of a contrnc:t moditicatt..m bSu.:d on II :'\ o~· 11. wh tch r~u1n::d the:
             contrttC:lot to ii'IC:re~tsc 1hc hc•;,Ull <)flhc cc•h ns:; o f the cuurthuu3C                                                                   I   comment 3b
                                                                                                                                                                               I
                         c) n u: contra..:ti n t~- otl1~;er ltte~ocl contract documentllt ion ~uppt111.i n!!- 0 t<:rminlllion for default                        SIGAR
             llccatcsc the cuntracung •lfficcr rc pres.:nlntl\e (CUR) tlid slot rCJ)l>tllhc conlr.lct,~r-~ las lure to accomplish
             the v.ork m meet the d<lcum, ntcd "ork n:quirccl\Cilt'i. scheduh: To the ccmcrnctm~ office-r
                                                                                                                                                             I   comment 3c
                                                                                                                                                                               I



SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                                                                    Page 12
                                                                                                                                                                               SIGAR
                     d) l he INI <.OW> lJ-pt>illllllclnornnJum. d~t~'<i :N o~ I:!. r<.:lcr<.:n~l!d u1 the ~udit rcpon w.L,                                                     comment 3d
           i1bul1icient to S:Upj)(ln a dCtC "nlll~tLl\11 I<.Jr d~la u h U~'tcr111 1 0illll>l'l d~ 10 the:- la~tth11t 11 contained
           assumptlClns that v.crc "·'' \ ulidatcd b~ Independent t.:stinl!
                                                                                                                                                                               SIGAR
                     e) !NL SUit ed 11 agmxl '"th rh~.fia~m.Jlt:.\UI'Jitl] C<>nt]ll~:ting_Offi~JJJ.&."Q d~ • siottro
           tcmu natc {~ni~:no.:c u1. :!5 'vbr 11                                                                                                                           I   comment 3e
                                                                                                                                                                                            I
                   I) L!!£..1HWil'~ rcfc~an..:m;ill__lhl{l_l C'-JTS<.TJ!ll<'mey on rlli:_i~Mie b to whet! CJ: .1




                                                                                                                                                                           D
           tcrmmauQJL!~o ~ Lt "h k~uppOnablc v.a> taken uut~l fh~ atwmt~ st:ncd ""'-c cirhcr                                                                                   SIGAR
           de.tenninc the eartier t~t rc-..111~ mal..e 111~ ~.:0111n1t:t ·~ainled b~ fr.1tnr and thercfurc we- can·l ~eu!o.:                                                   comment 3f
           anything :.o '-"0.: T40. ot "'e t!~I~T111int= the cvidtn~~ "rmt ~ull~!flnti\c cnuugh 10 mal.~ thi~ dcLc rmmatJon
           and mm e to a T.J(' ~ The ~~~• rc-;u!t" wcr.: n-ut sub 'itO'lth.: enough to P"" c fraud at the time the                                  ,,f
           testi ng. The 13oR CC: conuact1ng oniccr made the dctcrminmit•n to terminal~ l'l>r con~cni~ICC: ot that ti me.

                 b.   R~m menda rioo          2   lcknri{l Iho: r~a«,,f'/< I""'r ,..,.,...1-,;frl t~C;,·itrn:l,/ <ut<l .:.<ti!N' 1h 11rf1( '-'·~'"' to t,'n.~llr<' 1hl.,
           fN··~bh~m i" L·urr4!(. 1etl ··


            Re5J10nse: C O"'C UI{       II c ~tuurrtct "a' ~•r•~mall~ a d~"-litlloboo l d prniQ\.:1. m~'l!lllll£. the cnntractor wn>
            requm:d to ~ubm 1t bu1ldin~,: uesJ!_tll' to the lJS <i<WI!mmo!nt f<lr aprroval. atk-r which the approved do.:si)!.ns
            "'' uld beco me the blue pnnh 11> cons1mct the faciht~. At th~ tun:: oft he contr!>l!t cx.Nut.on. I abl.. l'urcc
            .lJ5 agreed to proviue a COl- to <J\ er'<.-.:- contrnct r~-rfNm:Jm:e One ur more nfthe COR, as:signoo t o thi"
            C<)<\lracl ha"'e rold SlGAR auJiLor~ the~ dnl nt>l pLh>e>-s con~! ruct ion l..nn" k:dgc auequal~ to null\!lOr th<!-
            o.:nmractor·, jXlrfonnau;:,; lUlU '~en: UllljLiafilicd tu pcrli..mn COl{ dutic~: ~-ct.. such concerns were nc\•cr
            rntscd to their ~>uper io~ 'w Lhc cunLractm!!- o iTtt:er Four cOnlmcllll!! nnlccrs v.erc a.">Signcd re ... pc\nsibility
            fot 1he ~.:o11tn1CI throu~t •ut iH durauon J'h.: nlllll iun uf pcr....'lt'IJICJ l"l'>p< >n,;i ble ll>· th i' c')lll ract reduced
            the ~ll\icrnment'~ Bbl lit) 1<1 ~ t)i~~.;(j\<,:l~ monitor p~rformanc~.. [he lxl.. ot C•>ntmctmg (lfliC:CT cuntinUit)
            ~nd lack of constslent C 1)R ..-.crs i ~ht ot"thc co'llnu:-t wc:rc majur o:ClntributoN> tn the actju i~i t i<m fdilurc.

                      I J C -JTSC:C has     111'1•1ut<.~   the l"ollowin!!, mcas:ures to mllill.JIC fLnure contrncl m cNtght L'-'iUC:s..

                        a) l'hc ~--·mt<)r c~-nrrncting OfTicial Ol1\\ TC!~Ui~ all RCC (..hi e I~ Ill enter W\.-.:kl) ~lCHUS UpUIIl<.:'
            lor all c:onslnKtion proj~'1:ts •1\Cr $] 50K ~on the SC0-1\ Shard'oim. Hie c<llltrn~tin~ officers re:.ponsiblc
            1'-'r these contracts mu~t ider.•if) '~hen an)' conStrncliOI1 project b behind :.chcdulc Id ue t('l Go'-'cmmcnt-
            •.;;ml!-Cd or ~onlrdcto.---causcd Jc la)SI and establish 8 WB)' ft,n'lml •~•th the Rcqu~nng ActJVtl). a..'i n:quircd ..
            1\dditionall) . a.s of AugLst 2to13 . l "-J'f'SC( ruttuirt.-s a month I~ CUR rcpon be subm it~ed on Cllch
            CL>n~tructiort project over SJ50K by the I Oth of the month \\.11etlll \.tl>nlhly COR Repon is delinquent or
            lacl...s qualitat i"c: onfurmut i~m regllrdi11g th~ p!'(IJ..:>.:l. the- contracri ng ,,m~cr a:.,igncd to th~ con:.trlll:tion
            proj!:::l is required to tollol.\ up dife(;tly \\ im the COR. 1ft h.: Momhl~ COR Rcpon b stil l dclicicnl. the
            .:ontracting ufliccrs arc N:Sfk>nsiblc for rn1sinw, the is~u~,. 10 the-ir ~~pc~ti\'C l lillflt Cn11.:f and.lor RCC
            ('h icf'tn ~n g.'lge with the ('OK'~ s11 pcn i~11 r and R~"quinnj! 1\cti~·it~ .. a~ appn>pnruc.

                      b) C'-JT~C( gcn.:rated J>nlic:~ Memorand um (SCO--\-I:!-i\IJU7. 11 Mar                  I:!J.. l't11iq }or
            l~!\lgn-Btrtltl Rl!qulrt.'tm•m.• The polio.:) numdaH~:l th111 a cnntractml! officer app<~int      a cenified en1.unocr ln
             rrov ide as~istan~;c " ith rnonitoring an~ dcsipt-build contrac:l. The polh::)t 11!!1.\l rcquin::s that 3 contmcll ng
             ofllc:t..'T obtain apprO\•al Irom tbc S~·nior (.\>mrnctinl!- Ot'!ici.al-Afg)lanist:m (S<..'0-A) rcit•r I<' isstlln!,! 8
             ..o!ic:iunitm lor any desi~n-t->uild contruct-

                        c) The ('. J I"Sl'l" C..:om mand rng (iuncral h;i> "or'-cd l'ith I '>FOR-A to 1mpm~c l'OR
             pcrfomumc c . L,SFOR-/, h11~ made <:OR ,,~crs ight a priorit~ COR 1\!fXl"-' :1n= now lrn~.:ked and 1'1:1\Uned
             10 USFUR-A on 11 montl1!} Nisi> Lhruu ~ the mom hly dashhoard briefing to thl! lJSl'OR •\ Dcput)'
             (\>rnm~ lidrng Gc11eral




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                                                                                Page 13
                      d) (.'.J I'SC( n,m em ploy~ C'M•;tnlctionl'on!NI Rcpresentati~·c;. (CO, Rl PS) CO Rt: PS
            arc ~onstmcuon ;.uojcct ft'ml'.:r expert>wh1' a,sk, CORs and contra;;ting o mcc~ mo1UH>r contr.n;1
            pcrfnrmsncc The COl\ RJ :rs assist ~'qUinllg ·lCliV I ll~~ Ill d.:\~l llping >OUIId ll1'11 Siructiol1 ..li.\lo.:mc:nls or
            ""rit. 1 he) alw a:;si5t •he lOR., !lnd ~ontm<:t mg olii~c~ throltghout a 1:1111strwt•on projo.:ct l:ly u.ll!l1t:if)tnll
            Bll) ~!'ell' <)r COI'k:c:nl

            'l   11lc following mfnm.atitm contamcd "" itlun the autlit rcpC\n rcqu111.!<. L'QIT<..'Ciinn or clllnficau on.

               a.. ~u.Jluu lh~Li'li! Lal t'illili!1~~·~cum.rui...'ltl&..aulll~u '" <t.J)&~crnm'illi o~JiiiUJ9D                             [ ]
            t\l,Pl~ ~                   'mil(i,Qn 1~ IH'.!..iUi£urnte. Tho.: rcron ~l ate,, - At the t i111c. C"l (" had ~n paid           SIGAR
            $396.000. Bo:>eau:.~: rne O,:~IIH I<Jct '" ~" l~n nmat..:d f('lf" C~lllV~'Jtio.:nce r:ulll!f" than dclimlt {'( {"could request comment 4
            the amo unt l'\: mam1 n!t 1lll th" contruct. or abc.IUI $~ .2 million - ll'ovcr rage. pam ' l one 1} A contractin!!
            officer 1s 1lot ubli~tcd to pa'· the total co ·tru~:t \ olu~ ;1fict t~rn.inatit1g a contrac1 ror .:onvemenc.:. !:!
            contracting oiT=r ma\ ·.m h ~a f!!!!trtl.flO r ftlf" s.u}>-1<111liat..:.!l.£v<h ill!;J•rJ:i&Al ~ rune o t the
            tc:nnjnation    n o tie~:   wi_th o n:-u.sonabl~: pr~'l1! .

               b. C-JTSCC is UUUY!lirc ~{l!l,;..WJ.~ .Jdtloll~~tn~tairll&.on pa\!t: 4_ufthe audl!. - At                                                 SIGAR ]
                                                                                                                                                        [
            an .:~ rly Oc~r 2011 " ~ccung. of I 1- URtT and CJ IA"II'-435 ollicUII~. p6fticipanb cxpre..o;..<;cd oonccm                                 comment 5
            thnt the BRCC contracting , ,1li<:<!r and rne CJIAT1"-43S l OR were m.n pcrfonll•nJ!. ~a•i~roctorily and tlwl
            Mtln itoring and repon in~ w~rc- in;;u 'licient ", ket!'p ~here inform~ nf the ~:on.,tructiun·' pn•~n.~~ and an~
            mc.a~urcs taken to impmvc l I.C" ~ pcrfoonanc~ -


                .:. <. -JTSCC c,Q!illmC'. 'iJI!"Uhc tQ.Il.Q"' Ul&.:llPU.'IlJ'O!tl~Ollllli!Jed.llllJ.l'I&C -l...!lllhe ~11d !l is not bas.:d on
            ~.:J....hm.suRQOS!Iiou. ··be ~ontract for con'ltruction oJ'th(! JCIP courthuusc was 1cnninaled for                                           SIGAR
            con11cn icnce D) the U ~ !_!.<hl!mmo.:nt in June :!01 1. t~cn though there Jna~· ha"·~ hcen a ~utTiciem t'lasis                      J'or    comment 6
             te nm notmg.rhc contr.u;1 for ~ cf.'lll lt."" Ill~ 8Hditor• m11~ have in,ut11cicOJ ~ 'pcri~'ll<=C '~ith d.: f~ull
             tc:rmmations and Lhc typ.:: ol Jocumcnmry r<..'Cl) rd need<.'<! to defend <uch ac1ions in Cllllrt The a uditor.;·
                                                                             '''
             bclicf that "there rna) hnvo.: h...'Cn 11 ~ uflicocm ba~•~· f>U"'IH! a ddi<Uit ti!mtinarion bdo..'jj ~ he rceo«l
             llvaj l3blo to them a •l<l i~ ;p.:..: ulnu ~ c lit 1'1~1 gai n., t.l:\~ default renninlltlon is~ued on J O<:t 13 wa.• oot
             bll5ed on a .ny information rrcviously o~••aila ble to the C:DIIfntcting officer.

                                                                                   {/1
                                                                                   ~~ £A..)-/
                                                                                    Jf\,"viL~L~ . ~-              I
                                                                                     ~doer Cicm:rnl. liSA
                                                                                     l, •·unander. C-JTSC<.
                                                                                     lk:ad ufContnu.;ti ntf. 1\cti\ i~




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                                                                           Page 14
SIGAR’s Response to U.S. Central Command Joint Theater Support Contracting
Command Comments


    1. U.S. Central Command Joint Theater Support Contracting Command’s (C-JTSCC’s) statement that
       SIGAR auditors did not have access to specific information related to an ongoing criminal investigation
       is accurate. This is consistent with our normal procedures. SIGAR auditors are not criminal
       investigators and do not have access to information regarding ongoing criminal investigations.
       Therefore, our recommendation did not refer to an investigation. Instead, our recommendation was to
       review the decision to terminate the Justice Center in Parwan (JCIP) courthouse construction contract
       for convenience and take appropriate action to address the contractor’s failure to complete the JCIP
       courthouse according to the terms of the contract. Because C-JTSCC rescinded the contract’s
       termination for convenience and issued a termination for default, while a draft of this report was at C-
       JTSCC for comment, we believe our recommendation has been acted upon and, as a result, we have
       deleted the recommendation from the final report.
    2. Our review indicates that there was sufficient documentation to terminate the contract for default in
       the first instance. As described in the report, there were numerous inspections performed indicating
       poor contractor performance, culminating in a 13-point recommendation by the Bureau of
       International Narcotics and Law Enforcement Affairs (INL) contracting officer representative (COR) to
       terminate the contract for default.
    3. We disagree with this statement. In both the draft and final reports, we state that the contracting
       officer told us that he felt there was inadequate documentation and oversight from the contracting
       officer representatives to justify a termination for default.

           3a. We do not disagree with C-JTSCC’s statement that the contracting officer excused months of
                delay based on a government request for testing. The delays for testing were all executed
                after construction was halted in January 2012. However, the delays discussed in the report
                were during the period of active construction, occurring from July 2011 – January 2012.
           3b. This statement is accurate, but we fail to see its relevance as the authorization of additional
                time and increasing the project price to change the height of the project’s ceilings was not
                discussed in the draft report as being an impediment to the project.
           3c. We believe this statement is accurate, insofar as the COR did not provide the contracting
                officer with the required quality assurance reviews during the period of active construction.
                However, as noted in the draft report, independent inspections performed by INL and the U.S.
                Army of Corps of Engineers revealed numerous construction deficiencies. These inspections
                were provided to the contracting officer.
           3d. The INL COR’s 13-point memorandum, dated November 29, 2012, contained numerous
                observations of problems with the project, including the lack of soil testing. However,
                adequate testing was not the only deficiency noted and was not among the most severe.
                Other issues, such as incomplete design drawings, which demonstrated the contractor’s lack
                of basic construction knowledge, poor construction of concrete joints, thickness of shear
                walls, and visible cracks in the walls were also noted in the memorandum.
           3e. We disagree with C-JTSCC. As our draft report noted, INL’s COR recommended that the
                contract be terminated for default. Moreover, INL comments on our draft report stated “INL
                recommended termination for default in November 2012 and continued thereafter to support
                that course of action.”
           3f. We disagree that the referenced email was taken out of context. As our draft report noted, the
                e-mail stated that there was “plenty of justification to support either decision” to terminate for
                convenience or terminate for default.
    4. Although we agree with C-JTSCC’s statement that the contracting officer is not “obligated” to pay the
       contractor the total contract value after terminating a contract for convenience, our draft report did
       not state that such an obligation existed. As noted in the draft report, Federal Acquisition Regulation
       (FAR) 49.207 limits the amount payable to the contractor for a settlement to an amount not exceeding
       the contract price, less payments otherwise made under the contract. Therefore, since the contractor
       had already been paid about $396,000, the contractor could have requested the remaining $2.2




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                         Page 15
       million on the contract. The actual amount payable to the contractor under a termination for
       convenience would have been determined by settlement of the contract, which often takes the form of
       a negotiated agreement between the parties.
    5. The statement was based on the minutes of a meeting that took place on October 8, 2011, between
       INL, the Bagram Regional Contracting Center and the Combined Joint Interagency Task Force-435. We
       obtained the meeting minutes from INL.
    6. We disagree with C-JTSCC’s comment. The recommendation from the INL COR to terminate the
       contract for default, several independent inspections showing substandard work by the contractor,
       and our discussions with numerous stakeholders involved with the project provide significant evidence
       that could be used to support a termination for default.




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                                                   Page 16
APPENDIX V – ACKNOWLEDGMENTS

Preston Heard, Senior Program Manager
Scott Harmon, Auditor-in-Charge
Arthur Granger, Senior Auditor
Lee Dillingham, Professional Engineer




SIGAR 14-7-IP/Justice Center in Parwan Courthouse   Page 17
                              This inspection report was conducted
                                 under project code SIGAR-I-010




SIGAR 14-7-IP/Justice Center in Parwan Courthouse                    Page 18
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
